1®°
No.

FILED
JUN 2 8 2019

smstMsm

3n®fje

Supreme Court of tfje ®nttetr States;

CAROL M. KAM, PRO SE,
Petitioner,
v.
DALLAS COUNTY and STATE OF TEXAS,
Respondents.

On Petition For Writ Of Certiorari
To The Fifth Circuit Court Of Appeals

PETITION FOR WRIT OF CERTIORARI

Carol M. Kam, Pro Se
!: 9039 Santa Clara Dr.
Dallas, Texas 75218
214-801-4901
carolmkam@gmail. com
.r:

QUESTION PRESENTED FOR REVIEW
Does the Rooker-Feldman Doctrine apply to two
Void [not voidable but, void] “proposed” State Court
Rulings produced by a former Associate Judge, em­
ployed solely by Dallas County, who failed to acquire
authority from the Judge of Record for the Dallas
County Probate Court or the State Probate Court
Judge, as required by State Law, to enter a Dallas
County Probate Court and who failed to obtain a signoff of his rulings from the Judge of Record within 30
days of their creation, as required by State Law?
For the record, the Dallas County employed Asso­
ciate Judge has been removed as a Jurist by the State
of Texas as the State has deemed him to be unfit.

11

PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the cap­
tion of the case as recited on the cover page. There are
no government corporate parties requiring a disclosure
statement under Supreme Court Rule 29.6.

Ill

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW..........

1

PARTIES TO THE PROCEEDING......................

11

TABLE OF CONTENTS.... ...................................

in

TABLE OF AUTHORITIES..... .............................

v

CITATIONS TO THE OPINIONS AND ORDERS
BELOW.................................. ...............................

1

STATEMENT OF JURISDICTION.....................

1

APPLICABLE LAW................................................
STATEMENT OF THE CASE AND RELEVANT
FACTS.............................................. ....................

1
3

ARGUMENT FOR ACCEPTING THE PETITION ....

9

(A) SUMMARY...................................................

9

(B) ABSENCE OF ORDER FOR ORIGINAL
TRIAL.........................................:..................

9

(C) ABSENCE OF ORDER FOR REHEAR­
11
ING
(D) REQUIRED SIGN OFF BY THE JUDGE
OF RECORD................................................. 11
(E) REQUIRED SIGN OFF BY THE JUDGE
OF RECORD FOR AN APPEAL................ 13
(F) APPLICABLE CASE LAW.........................

13

(G) FRAUD/FORGERY......................................

16

(H) PREGNANCY/JURISDICTION................

17

JUDICIAL BACKGROUND (SEPARATE FROM
ARGUMENT)...................................................... 18

IV

TABLE OF CONTENTS - Continued
Page
MR. PEYTON..............................................

20

UNCONTESTED FACTS IN THE CASE

22

CONCLUSION...........................................

23

APPENDIX
U.S. Fifth Circuit Court of Appeals Opinion [un­
dated] ................................................................. App. 1
U.S. District Court, Northern District of Texas,
Dallas Division Order and Judgement accept­
ing the Findings, Conclusions, and Recom­
mendation of the United States Magistrate
Judge dated June 12, 2018.............................. App. 5
Findings, Conclusions and Recommendation of
the United States Magistrate Judge filed May29, 2018............................................................. App. 9
Denial of Petition for Rehearing by the U.S.
Fifth Circuit Court of Appeals filed April 12,
App. 20
2019

V

TABLE OF AUTHORITIES
Page
Case Law
Aston v Lyons, 577 S.W. 2D 516 (1979) [TX Civil
Appeal]......................................................... ..........
Croucher v Croucher, 660 S.W.2d 55 [1983].........

17
15
6

District of Columbia Court of Appeals u Feld­
man, 460 US 462 [1983].......................................

19

First District of Texas Appeal Court ruling Jackson v Saradjian, 01-11-00128-CV [2013].........

16

Browning v Prostok, 165 S. W. 3d 336 [Tex 2005].

Illinois Central R.R. Co. u Guy, 682 F.3d 381 [5th
circuit 2012]............................................................ 13,14
Mosely v Bowie City, Tex 275 Fed Appx 327 [5th
circuit 2008]............................................................

15

Rooker v Fidelity Trust Co., 263 US 413,44 S. Ct
149 [1923]................................................................ 15,19
Salinas u U.S. Bank National Association, 1341012 U.S. Court of Appeals for the Fifth Cir­
cuit ............................................................................

14

Travelers Insurance Co v Joachim, 315 S. W. 3D
860 [Tex 2010]........................................................

15

United States v Shepherd, 23 F.3d 923 5th Cir­
cuit [1994]................................................................

14

Constitution and Statutes
U.S. Const, amend. XIV

3

28 USC SECTION 1254

1

VI

TABLE OF AUTHORITIES - Continued
Page
28 USC SECTION 1738

3

42 USC SECTION 1985

2

Texas Government Code 54.610 [Does not exist]

10

Texas Government Code 54.618 [Does not exist].

10

Texas Government Code 54A.204.......................

21

Texas Government Code 54A.207.......................

1,9

Texas Government Code 54A.208.......................

1,9

Texas Government Code 54A.209.16..................

13

Texas Government Code 54A.209.17..................

1,11

Texas Government Code 54A.212[f]................... ...2,11
Texas Government Code 54A.214[b]............. ..... ...2,12
Texas Government Code 54A.215[b]...................

2, 12

Texas Government Code 54A.217[b]...................

2,13

Texas Government Code 54.610 and 54.618
noted on the document dated July 16, 2013
and not filed until late August 2013 did not
exist after Jan 1, 2012, did not exist on July
16, 2013 and do not exist today]........................

10

1
CITATIONS TO THE
OPINIONS AND ORDERS BELOW
The decision of the Fifth Circuit Court of Appeals
is unpublished. The Petitioner filed for a rehearing
which was denied.
The decision by the Fifth District Court in North
Texas is published.

STATEMENT OF JURISDICTION
The Fifth Circuit Court of Appeals has denied the
Petitioner’s request in a final ruling dated April 12,
2019. Jurisdiction in this Court is proper per Title 28
USC, Section 1254 as the Supreme Court has the right
to review an Appeal Court Ruling via a Writ of Certio­
rari.

APPLICABLE LAW
Texas Government Code:
54A.207[a]
a judge of a court may refer
to an associate judge any aspect of a suit over
which the probate court has jurisdiction ...”
54A.208[a] “A case may be referred to an asso­
ciate judge by an order of referral in a spe­
cific case or an omnibus order specifying the
class and type of cases to be referred.”
54A.209.17.C “ . . . The judge of the referring
Court shall sign the order not. later than the

2
30th day after the date the associate judge
signs the order”
54A.212[f] “After a hearing conducted by an
associate judge, the associate judge shall send
the associate judge’s signed and dated report
including the proposed order, and all other pa­
pers relating to the case to the referring court.”
54A.214[b] “
or the right to a de novo hear­
ing before the referring court is waived, the de­
cisions and recommendations of the associate
judge or the proposed order or judgement of
the associate judge becomes the order or
judgement of the referring court at the time
the judge of the referring court signs the pro­
posed order or judgement.”
54A.215[b] “The judge of the referring court
shall sign a proposed order or judgment the
court adopts as provided by subsection [a][l]
not later than the 30th day after the date the
associate judge signed the order or judge­
ment.”
54A.217[b] “Except as provided by subsection
[c], the date the judge of a referring court signs
an order or judgement is the controlling date
for the purposes of appeal to or request for
other relief from a court of appeals or a su­
preme court” [“c” refers to 54A.209.16 where
all parties have agreed to the associate judge’s
ruling in writing, which is not applicable].
42 SECTION 1985 “ ... If two or more persons
in any state . . . conspire ... for the purpose
of depriving . . . equal- protections of the
laws . . . the party so injured or deprived

3

may have an action for the recovery of dam­
ages occasioned by such injury or deprivation
against any one or more of the conspirators.
U.S. Constitution 14th Amendment “ . . . All
citizens have equal protection of the laws ...”
28 USC SECTION 1738 “ . . . The records and
judicial proceedings of any court, or any such
state, territory or possession, of copied thereof,
shall be provided or admitted in other courts
within the United States and its territories
and possessions by the attestation of the clerk
and seal of the court annexed, if a seal exists,
together with a certificate of a judge of the
court that the said attestation is in the proper
form. . . .”

STATEMENT OF THE CASE
AND RELEVANT FACTS
[R.E. Indicates an item from the Record of Excerpts
from the Fifth Circuit Court of Appeals Submittal]
The Case is based on Judicial Misconduct by two
Dallas Probate Courts during the period 2011 to 2013
to cover for the gross incompetence, unethical be­
havior, and ineptitude of a Dallas Probate Attorney,
David Pyke. Pyke was never employed by my Father or
my Brother. Pyke mishandled and squandered assets
from both my Father and my Brother’s estates and
the Court system was used to cover for the mis­
conduct and used to punish me for exposing the
complete idiocy of this man. Not only was I denied
my Civil Rights to fair Trials but the courts were

4
actually used in a malicious manner to punish me for
“whistle blowing” the gross ineptitude, unethical be­
havior, and misconduct of Pyke.
The First Case involved my Brother’s estate where
multiple County and State Courts egregiously covered
for the misconduct of Pyke and the unauthorized activ­
ities in the Dallas Probate Court. The Federal Courts
have limited their pervue to the misconduct of my
Brother’s case in the Dallas Probate Court. This peti­
tion is also solely based on this case.
The second Case involved the gross misconduct by
Pyke and the Dallas Probate Court in my Father’s es­
tate. While the Dallas Probate Court ruled against me
and covered for the gross ineptitude, unethical behav­
ior, and incompetence of Pyke, fortunately this Case
was sent to the El Paso Appeal Court and not the Dal­
las Appeal Court. The El Paso Appeal Court had no
predisposed position to cover for Pyke and the Dallas
Probate Court. They corrected the judicial error and
reversed the Ruling in my favor and granted me all
available relief by Law. The Texas Supreme Court up­
held the Appeal Court Ruling. While this second case
is not part of this Petition for Writ of Certiorari, it will
be part of any future negotiations for compensation for
my denial of Federal Civil Rights and actual losses
The following is a historical background to my
Brother’s estate.
In June of 2010, my older brother, Robert S. Kam
was diagnosed with Stage IV Pancreatic Cancer. His
health deteriorated with time and by mid February
of 2011 Robert S. Kam created and fully funded an

5

Irrevocable Trust which bequeathed me a fixed
amount of $ 10,000. In early March 2011, my brother’s
girlfriend, observing that my brother no longer had ca­
pacity, contacted her attorney, David Pyke, to revise
the Trust in order to add her Children and to assign
her a greater portion of the Estate. During the initial
meeting on March 11, 2011, the Attorney [Pyke] sent
my brother home as he admitted Robert Kam was too
ill to work with.
By early March 2011, Robert Kam was 8 months
into Stage IV Pancreatic Cancer with no remission,
was on a significant amount of narcotics to control the
excruciating pain, had a valve permanently inserted
thru the front of his body into his stomach to fre­
quently drain accumulating fluids, required dialysis
every three days due to complete loss of Kidney func­
tion three months earlier, had significant loss of liver
function with associated accumulation of irretrievable
toxins, had an attention span of two minutes, required
diapers, was unable to walk unassisted, required 24
hour care, was totally blind in one eye from glaucoma
and required very significant correction in the other
eye with limited vision due to myopia and glaucoma.
By early March 2011 Robert S. Kam had no capacity
and was essentially a breathing cadaver.
The girlfriend continued to work with her Attor­
ney [Pyke] and revised the documents to her satisfac­
tion which increased her benefits and added her
children as heirs. She wheelchaired Robert back to
Pyke’s office on March 17, 2011 for an alleged “sign­
ing”. David Pyke had illegally created an Amended/
Restated Trust without taking the original irrevocable

6
Trust back through a Court and without notifying any
beneficiaries.
Even though Pyke was instructed to add me in as
a beneficiary for $10,000 per the original irrevocable
Trust, he failed to do so. Pyke acknowledged, under
oath in the trial that the omission of me as an heir in
the Trust he created for the girlfriend was his error. My
brother Robert was too ill to recognize the omission
and it was not discovered until later the night of
March 17, 2011 when the Trustee’s wife reviewed the
Amended and Restated Trust and noted the deficiency
and the “fatal flaw” to Pyke’s work.
While Pyke re-amended the Trust and that added
me back in at a later date, it was crystal clear that on
March 17,2011 my brother Robert did not have legal
testamentary capacity, no less contractual capacity,
to sign a Will or Trust. This irrefutable FACT voided
all Of the documents created by the girlfriend and Pyke
that was allegedly signed by Robert Kam on March 17,
2011.
The Medical Records for March 18, 2011 [R.E. 12],
the M.D. Anderson Oncologist Report [R.E. 10] and
Courtroom Testimony reconfirmed that my Brother did
not have capacity. Per Croucher v Croucher 660 S.W.2d
55 [1983] if one has a history of non capacity immedi­
ately before or immediately after an event, he does not
have capacity at the time of the event. My brother
passed 10 days later on March 28, 2011 while being
loaded in a car to be taken to dialysis.
I became very vocal when I discovered the gross
ineptitude and incompetence of Pyke and the fact he

7
was not employed by my Brother to Amend the Irrevo­
cable Trust. Pyke instructed the Trustee to refuse to
pay me my inheritance even though it was undisputed
by any party in the original Irrevocable Trust and in
the Amendment to the Amended Trust.
In order to simplify the Contest of the Case, I
joined my Nephew who legally disputed the validity of
the Amended Trust which had significantly reduced
the inheritance promised to him by his father.
Seven days prior to the trial set by Dallas Probate
Judge Michael Miller, my attorney attended a pre trial
meeting with Attorney James Fisher representing the
Trustee and Pyke. My attorney left at the conclusion of
pre trial meeting however, unbeknownst to my Attorney,
James Fisher remained and conducted an ex-parte meet­
ing with Judge Miller which resulted in Judge Miller
refraining from any future contact with my Counsel,
Miller stepping down as Judge for the Trial and the
substitution of Associate Judge Peyton to handle the
trial. In retrospect, this was a clearly a “set-up” to rig
any ruling to maintain professional cover for the gross
ineptitude, misconduct, and incompetence of Pyke.
After a 3 day trial, Peyton immediately ruled that
my brother Robert had capacity, which was counter to
court testimony, the Medical Records, the M.D. Ander­
son Oncologist report, the facts, Case Law, and all com­
mon sense. Even though all parties acknowledged that
I was a valid heir for $10,000 and was not paid, Peyton
not only removed me from the estate but charged me
with $226,000 of Court costs as punishment for flag­
ging “Pyke.”

8
During the trial, Pyke claimed that Dr. Robert
Beard, a pediatrician, who never treated my brother,
was in his office on March 17, 2011 and signed a DNR
[State Promulgated Do Not Resuscitate Form]. Pyke’s
paralegals signed as witnesses to Dr. Beard’s signature
on this Form that was brought to Pyke’s office by the
girlfriend. Dr. Beard was not announced as a person of
knowledge prior to the trial.
After the Proposed ruling by Peyton, my attorney
sought a rehearing with the Judge of Record, Miller.
Miller granted the rehearing and it was scheduled for
October 16, 2013 with Judge Miller listed to preside.
Pyke nor Fisher had not listed Dr. Beard as a per­
son with knowledge in the Case prior to trial however,
Pyke claimed in Court testimony that Beard had inti­
mate knowledge of Robert’s Capacity in Pyke’s Office
on March 17, 2011.
My attorney Subpoenaed Dr. Beard for testimony
at the rehearing.
In doing research for the rehearing, Attorney
Mark Steirer discovered that as of mid August 2013
there was no Order of Referral of any kind shown in
the Court Records. Mark Steirer had made a screen
shot of files in mid August that documented this omis­
sion. An Order of Referral did not appear in the court
Files until Late August and it was post dated to July
16, 2013. This Order was and has never been pre­
sented to any party for review at any time. The Court
docket numbers also confirm that the document dated
July 16, 2013 did not exist and was not filed until late
August 2013.

9
Even though the Court Records listed Miller as
the Judge for the rehearing in October 2013, Judge
Peyton showed up, with no prior announcement and no
authorization from Miller. Peyton refused to allow my
attorney to depose Dr. Beard and denied my right to
depose a reported medical expert with critical knowl­
edge directly related to the Case.

ARGUMENT FOR ACCEPTING THE PETITION
(A)

SUMMARY

[R.E. Indicates an item from the Record of
Excerpts from the Fifth Circuit Appeal Submittal]
John Peyton failed to obtain and have authority
and thus jurisdiction to hear my Case as required by
State Law. The Judge of Record has never signed off
on any of the proposed rulings as required by State
Law. The County and State have consistently failed to
address these deficiencies. Without authorization to be
in the courtroom and without the sign off of the Judge
of Record, all of Peyton’s proposed rulings are “VOID”.
It is a complete absence of logic to apply the RookerFeldman Doctrine to a Void State Ruling.
(B) ABSENCE OF ORDER FOR ORIGINAL TRIAL
A Texas Probate Judge has the right to refer a
Case to an Associate Judge however, it can only be done
by an Order of Referral issued prior to the event. Refer
to Texas Government Codes 54A.207 and 54A.208.

10
When Peyton walked in the Court room in July
2013, no Order of Referral existed. Per Texas Statute,
Associate Judge John Peyton was supposed to have an
“Order of Referral” from Probate Judge Michael Miller
in Dallas or State Probate Judge Guy Herman in Aus­
tin. John Peyton heard my Case in July 2013 and the
rehearing on October 2013. State Probate Judge Guy
Herman issued an Order of Referral for John Peyton
for only August 2013 and September 2013 [R.E. 17 to
R.E. 20]. He did not issue any Order for July or October
2013. An Order of Referral was created and filed on or
around August 28,2013. [R.E. 15]. It has numerous fac­
tual and technical errors, is signed by an unknown in­
dividual, and is worthless as a legal instrument. This
Order lists Government Codes 54.610 and 54.618 as
the basis for the Referral however, these laws did not
exist in 2013 and do not exist today. We do not know
the legal basis for the Referral. The “signature” on this
Order of Referral is significantly different than Miller’s
signature on the Notice of Rehearing [R.E. 16] so we
have no idea who authored and signed this post dated
Order.
Final Judgment signed by John Peyton on August
9, 2013 [R.E. 13 and R.E. 13.1] shows the File Number
of 218243.
The post dated Order of Referral dated July 16,
2013, created and filed around August 28, 2013 shows
a later file number of 247680.
The Notice of Hearing signed September 17, 2013
has a file Number of 270844.

11
The Court file numbers are in sequence and the
Order of Referral was not created and filed until AF­
TER the Judgment,
To date, Dallas County and the State of Texas have
offered no explanation for the late filing, no confirma­
tion of the unknown author or signatory and no expla­
nation for the non-existent laws referenced for this
technically worthless instrument. We can reasonably
assume that Dallas County and the State of Texas
have no explanation to this Court for the incompetence
and/or fraud related to this document.
(C)

ABSENCE OF ORDER FOR REHEARING

It is undisputed by all parties that no order ever
existed for the Oct. 16, 2013 Rehearing.
(D) REQUIRED SIGN OFF
BY THE JUDGE OF RECORD
Refer to the following Texas Government Code
Laws for Clarity:
54A.209.17.C “ . . . The judge of the referring
Court shall sign the order not later than the
30th day after the date the associate judge
signs the order”
54A.212[f] “After a hearing conducted by an
associate judge, the associate judge shall send
the associate judge’s signed and dated report
including the proposed order, and all other pa­
pers relating to the case to the referring court.”

12
54A.214[b] “ ... or the right to a de novo hear­
ing before the referring court is waived, the de­
cisions and recommendations of the associate
judge or the proposed order or judgement of
the associate judge becomes the order or
judgement of the referring court at the time
the judge of the referring court signs the pro­
posed order or judgement.”
54A.215[b] “The judge of the referring court
shall sign a proposed order or judgment the
court adopts as provided by subsection [a][l]
not later than the 30th day after the date the
associate judge signed the order or judge­
ment. ”
Per Texas Law, Peyton’s rulings are a now
only expired proposed Orders and not a Final
Order by the Court. Given that we are well
past 30 days from the dates of August 9, 2013
and October 16, 2013 when Peyton signed his
proposed Orders, the proposed Orders are
completely VOID at this time.
Although absent of integrity, Peyton was an
experienced associate Jurist and knows Miller
had to sign off on his work. Miller never
signed off because Peyton never provided the
now expired proposed Orders to Miller or Mil­
ler found fault with the now expired proposed
Orders and Peyton never corrected it to Mil­
ler’s satisfaction.

13
(E) REQUIRED SIGN OFF BY THE
JUDGE OF RECORD FOR AN APPEAL
Without Peyton having the Judge of Record sign
off on his proposed Orders as required to make an Ap­
pealable final Order, Peyton denied me my civil right
to take the Probate Court Case to a Texas Appeal
Court.
A State Appeal court will not accept a proposed
Order as a Final Order.
Refer to Texas Government Code 54A.217[b] “Ex­
cept as provided by subsection [c], the date the judge of
a referring court signs an order or judgement is the con­
trolling date for the purposes of appeal to or request for
other relief from a court of appeals or a supreme court”
[“c” refers to 54A.209.16 where all parties have agreed
to the associate judge’s ruling in writing, which is cer­
tainly not applicable with my case].
HAVING AN ORDER WHICH IS SUITABLE FOR AP­
PEAL IS THE ULTIMATE DEFINITION OF A FINAL
ORDER BY THE COURT AND THIS LAW CLEARLY
AND UNEQUIVOCALLY SHOWS PEYTON’S WORK
IS SIMPLY A NOW-EXPIRED PROPOSED ORDER.
(F)

APPLICABLE CASE LAW

Illinois Central R.R. Co. v Guy 682 F 3d 381, 390
[5th circuit 2012] This is a Case were the Railroad sued
two attorneys in a Federal Court for damages they in­
curred from a State Court Ruling where the Attorneys
were found to have been deceptive. No party contested
the validity of the State Court Ruling and it is assumed
to be valid.

14
In essence, the Railroad was seeking compensa­
tion for damages directly related to the results of a
valid State Court ruling. The 5th Circuit deemed that
“The Rooker Feldman Doctrine” did not apply to this
case because adjudicating Illinois Central claims did not
require the District Court to review any final Judge­
ment by a State Court even though the requested re­
imbursement are related to the losses in the State
Court decision. It is apparently “OK” to seek the losses
one incurred in a valid State Court Ruling as long as
the ruling itself is not reviewed. As there is no Valid
Ruling in my case for this Court to review, it appears I
clearly have a right to seek compensation for the losses
I incurred in an invalid State Court Procedure.
As in the Illinois Railroad Case, Fraud was
acknowledged within the State Court Case. The Fraud
in my Case is actually more egregious as the Fraud in
my Case was actually performed by Officers of the
Court and not an outside party.
If one can prosecute and seek compensation for
Fraud by a third party in a single valid State Court
Case and be able to bypass the Rooker-Feldman Doc­
trine, I should certainly be permitted to prosecute for
compensation for fraud by the Court itself from invalid
State Court hearings.
Salinas v US. Bank National Association 13-41012
U.S. Court of Appeals for the Fifth Circuit quoting
United States v Shepherd 23 F.3d 923, 925 [5th Circuit
1994] observing that the Rooker-Feldman Doctrine
would likely not bar federal court review of void state
court judgments
a federal court may review

15
the state court record to determine if the judgment is
void ... a judgment is void . . . ”if the rendering court
[1] lacked jurisdiction over the party or his property
[2] lacked jurisdiction over the subject matter of the
suit [3] lacked jurisdiction to enter the particular judg­
ment rendered; or [4] lacked capacity to act as a court”
With no Jurisdiction by Peyton, this quote from this
case, from this court, fits my Case to a “T”.
Mosely u Bowie City, Tex 275 Fed Appx 327, 329
[5th circuit 2008] citing Shepherd for the proposition
that under some circumstances, a federal court may re­
view the state court record to determine if the judg­
ment is void”
Rooker v Fidelity Trust 263 US at 415, 44 S. Ct.
149: “finding no federal jurisdiction to review state
court judgments where the state had subject matter
over the underlying case. . . . This clearly implies that
if a State Court Judgment is Valid, the Doctrine does
not apply.
Travelers Insurance Co v Joachim 315 S. W. 3D 860
863 [Tex 2010] quoting Browning v Prostok, 165 S. W.
3d 336, 346 [Tex 2005] “
A judgment is void only
when it is apparent that the court rendering the judge­
ment had no jurisdiction of the parties or property, no
jurisdiction of the subject matter, no jurisdiction to en­
ter a particular judgement or no capacity to act.”
The Federal Court has the right, and from a Civil
Rights point of view, the obligation to assess my case
to determine if the State Judgment is Valid and, ifVoid,
Rooker Feldman cannot and does not apply.

16
Per First District of Texas Appeal Court ruling
Jackson v Saradjian 01-11-00128-CV [2013] "... that
a judgment of the Associate Judge become the Judg­
ment of the referring Court only on the referring Court’s
signing of the proposed judgment. . . There is no refer­
ral Order in this case, so the November 22, 2010 decree
signed by an Associate Judge does not even have the
standing of a . . . proposed judgment. Because the No­
vember 22, 2010 decree was not signed by the District
judge, we hold that it has no legal effect as a judgment. ”
This ruling by the First District of Texas is ex­
tremely clear, pertinent, rational and logical. . . . No
Order and No Sign-off creates no Valid Order.
(G)

FRAUD/FORGERY

During the trial, Pyke’s two legal assistants ini­
tially testified that they witnessed Dr. Robert Beard
signing the DNR [Do Not Resuscitate Form]. They
later backed-off stating, again under oath, that Doctor
Beard was never in their office, yet they signed as wit­
nesses to his signature.
My Family grossly underestimated the Fraud
committed by Pyke on March 17, 2011 and after the
Probate Trial, we employed a hand writing expert,
Curtis Baggett, who confirmed that ALL of the Robert
Kam signatures on the March 17, 2011 documents are
Forgeries [R.E. 21 to R.E. 23]. Given the March 18,
2011 Medical Record showing a period of syncope and
a 69/43 blood pressure reading [R.E. 12], this now

17
makes perfect sense. It was illegal to Probate the doc­
uments with forged signatures. Aston v Lyons, 577 S.W.
2D 516, 519 (1979) [TX Civil Appeal]. The handwriting
expert who created the reports, is highly reputable and
frequently employed by Dallas County.
Judges Miller and Peyton were highly motivated
to cover for the gross incompetence, ineptitude, and
misconduct of Pyke.
(H)

PREGNANCY/JURISDICTION

A woman is pregnant or not pregnant at any time.
There is no “in between”. The same concept holds true
in Law. A Judge has Jurisdiction or he/she does not
have Jurisdiction. If he or she does not have Jurisdic­
tion, any ruling made by such Judge has no Force of
Law. In addition, any Judicial Act made by a Judge
without Jurisdiction can, and in this case, has placed
an undue burden on an innocent citizen.
The concept of “Partial Jurisdiction” does not exist
in Law. Peyton NEVER had Jurisdiction at any time for
either hearing. While this is a simple analogy, it is a
very powerful concept that all parties can comprehend.
John Peyton presided over two hearings. From
July 22, 2013 to July 26, 2013 and the second on Octo­
ber 16, 2013. There is No Order of Referral for John
Peyton from any entity for the October 16, 2013 hear­
ing. There is an Order of Referral filed in the Court in
late August 2013. This Order however, did not exist
prior to late August and it was never provided to any
party in the Suit. This Order has numerous technical

18
and factual flaws, has an unknown signatory, which
deem it to be of no legal value and illustrates the Fraud
created by someone with access to court Records.
“JUDICIAL POWER IS VESTED IN THE COURT,
NOT AN INDIVIDUAL”. When Peyton walked into
Miller’s Court on July 22, 2013 and October 16, 2013,
he did not have authority from the Judge of Record,
Michael Miller. Furthermore, Miller never reviewed or
signed off on any ruling by Peyton. Only Miller and
Guy Herman can provide authority to Peyton. No other
Officer of the Court can do this.
Failure to provide a duly authorized Judge in my
trial represents a severe denial of my civil rights.

JUDICIAL BACKGROUND
The Federal District Court denied the Petitioner’s
request based solely on the Rooker Feldman Doctrine
which disallows any Federal Court review of a valid
State Court Judgement. The District Court failed to
address the actual validity of the Judgement and also
failed to consider the violations of Federal Civil Rights
and the burden placed on the Petitioner related to the
process of the “Void” state Judgement.
The Fifth Circuit Court of Appeals upheld the Dis­
trict Court Ruling related to the Rooker Feldman Doc­
trine. The Federal Appeal Court also failed to address
any of the violations of Federal Civil Rights during the
State Judicial proceedings and ignored the Fact that
the proposed and now expired Ruling by a former

19
Associate Judge, with no Valid Order of referral, as re­
quired by State Law and no sign off by the Judge of
Record for the Court, as Required by State Law was
and is Void.
Rooker v Fidelity Trust Co. 263 US 413-415, 44 S.
Ct 149 [1923]: “finding no federal jurisdiction to review
state court judgments where the state had subject
matter over the underlying case. . . .” This requires a
VALID State Court Judgement where the state court
had proper jurisdiction District of Columbia Court of
Appeals v Feldman, 460 US 462 [1983]. This is also
based on a VALID non Federal court decision and is not
applicable to this Case.
The case law which defines the Rooker-Feldman
doctrine is based on undisputed VALID state court rul­
ings. The District Court and the Appeal Court also re­
fer to additional Case Law which are based on VALID
State Rulings. Judge John Peyton was an Associate
Judge which required an Order of Referral from the
Judge of Record [Miller] or the State Probate Judge
[Guy Herman] prior to entering a State Probate Court.
John Peyton failed to acquire Orders of Referral for two
hearings on my Case in July and October 2013. As an
Associate Judge, John Peyton was also required to
have the Judge of Record sign off on any of his pro­
posed Rulings within 30 days per State Law. John Pey­
ton has never had the Judge of Record sign off on any
rulings in my Case and, as of this date, the proposed
Orders are Void.
The importance of this Case is critical to the Law
across this Country. Without exception, all prior cases

20
related to the Rooker Feldman Doctrine rely on VALID
State Court Rulings. In this Case we have no Valid
State Court Ruling but essentially only a proposed or­
der by an Associate Judge who failed to have the sign
off by the Judge of Record within 30 days, as. required
by State Law. The Dallas District Court and the Fifth
Circuit Court of Appeal have now created Case Law
that is completely void of Logic and is in complete con­
flict with all prior Case Law related to the Rooker-Feldman Doctrine.
The Case is also critical as the lower Federal
Courts failed to address any of the violations of Federal
Civil Rights related to the illegal State Court activities.
Per the lower Federal Court rulings one can interpret
that holding a trial in a State Court by a Jurist without
proper authority and creating Void Rulings which un­
fairly burdens a litigant is not a violation of one’s Civil
Rights to a Fair and Equitable trial. This is completely
void of logic and counter to accepted legal doctrine and
tradition.

MR. PEYTON
John B. Peyton Jr. was removed as a Judge by the
Texas State Commission on Judicial Conduct in early
2018. This removal was allegedly related to an affair
he carried on with a Probate Attorney during a trial
while she represented one party in a Case that Peyton
presided over and he had made rulings in favor of her
client during the trial proceedings.

21
Affairs and intimate relationships are common
and normally accepted in the legal community and
have been so for many years. Affairs are normally not
a cause for severe action such as removal of a long term
Jurist. While the D magazine article [R.E. 24 to R.E.
36] on Peyton well documents the affair, Peyton’s gross
betrayal of his wife and family, Peyton’s incredible ab­
sence of good judgement, and his absence of under­
standing of personal responsibility, it does not actually
prove that Peyton was influenced by this relationship.
That would be pure speculation.
The Judicial Commission however, already had a
significant file of prior misconduct, including well doc­
umented information on this Case. The published af­
fair was simply used to remove him without any need
to disclose more serious and actual documented mis­
conduct.
In evaluating this Petition, I trust this Court will
consider Peyton’s documented absence of integrity and
unprofessional conduct, and the fact that the State of
Texas has deemed him unfit to be a Jurist.
Per Texas Government Code 54A.204: QUALIFI­
CATIONS: To qualify for appointment as an associate
judge under this subchapter, a person must: [4] not have
resigned from office after having received notice that
formal proceedings by the State Commission on Judi­
cial Conduct had been instituted as provided in Section
33.022 and before final disposition of the proceedings.

22

UNCONTESTED FACTS OF THE CASE
1] The Amended Trust by Pyke is factually
Void as Robert Kam failed to have Testamentary
Capacity to recognize that I was omitted from
the illegal revision by Pyke, to an active irrevo­
cable Trust.
2] I am an uncontested, valid heir under
any Trust scenario for a fixed amount and there
is no court testimony or defense pleading that I
am not a valid heir for $10K and that my contest
was frivolous in any manner.
3] Documentation and presentation have
consistently shown that unelected, unappointed
Associate Judge John B. Peyton Jr. did not have
authorization to be in the Courtroom on July
2013 and October 2013 for my hearings as re­
quired by Texas Law.
4] Judge Miller has never signed off on any
of Peyton’s now expired proposed orders in my
Case, as required by Texas Law.
5] The Authority of a Court is the Court it­
self and not an individual.
6] Without Authorization and/a sign off by
the Judge of Record for the Court, all of Peyton’s
rulings are “VOID ORDERS.”
7] Peyton has not produced valid state final
Court Orders suitable for an Appeal.

23
8] As Peyton’s Rulings are now expired
“VOID ORDERS”, per State Law.
9] The Rooker Feldman Doctrine can only
apply to valid State Court orders.
10] A unelected, unappointed Jurist hold­
ing a trial without authorization and a sign off
by the Judge of Record for the Court, all required
by State Law, is a violation of my Civil Rights.
11] Peyton’s denial of my right to depose an
announced Medical Expert by the Defense in a
Case involving Capacity is a violation of my Civil
Right to a Fair and Equitable Trial.

CONCLUSION
The Magistrate in the District Court failed to un­
derstand this Case or she did understand this Case
and was pre-disposed to cover for Judicial misconduct.
In her Conclusion she claims that “The relief Karri
sought in the federal district court included a 1] retrial
of the first will contest suit to remove the “malicious
judgement” entered against her [2] her $10,000 inher­
itance ..." This statement is completely false and rep­
resents a severe error or intentional misrepresentation
of my Cases by the Magistrate.
I have never asked for a retrial but a FAIR
TRIAL. As Peyton did not have Jurisdiction and
Miller never signed off on any Peyton Ruling, I have

24
technically never had a trial to date with any legiti­
macy. The actual plea from Page ID 50 is noted below
“I pray that Dallas County and the State of
Texas grant me a Fair Trial, with a jury, so that I
may have the opportunity to have a Malicious
Judgement removed, and that I receive my as­
signed inheritance. ”
I did not and have never asked the federal district
court to remove any judgement [with no Jurisdiction,
there is no Judgment to remove]. I did not and have
never asked any federal court to give me my inher­
itance. I asked for a Fair trial to have the OPPOR­
TUNITY to have the malicious Judgement removed
and the OPPORTUNITY to receive my assigned in­
heritance.
This is a critical distinction.
The District Court Judge of Record clearly failed
to review the Magistrate’s work and the Appeal Court
simply copied the Magistrate’s Opinion, incorrectly as­
suming that the District Court Judge had supervised
the Magistrate. They summarily dismissed all other
pleadings without any review or commentary in what
appears to be a bout of “Wizard of Oz” syndrome.
As a direct result of this inadequate review and/or
lack of understanding of the Case, the Federal Court
system has now created Case Law absence of all logic
that claims the Rooker-Feldman Doctrine can now ap­
ply to Void State Court Rulings.

25

The Supreme Court must reverse the Appeal
Court decision to re-establish Logic into the legal sys­
tem with respect to the Rooker Feldman Doctrine.
I also pray that the Supreme Court shall permit
me to seek relief from Dallas County and the State of
Texas for the denial of my access to a Fair and equita­
ble trial in accordance with State Law.
Respectfully submitted,
Carol M. Kam, Pro Se
9039 Santa Clara Dr.
Dallas, Texas 75218
214-801-4901
carolmkam@gmail. com

